 

No. 19-123

 

IN THE
Supreme Court of the United States

SHARONELL FULTON, ET AL.,
Petitioners,
Vv.

CrTy OF PHILADELPHIA, PENNSYLVANIA, ET AL.,
Respondents.

As required by Supreme Court Rule 33.1(h), I certify that the Brief of First
Amendment Scholars as Amici Curiae in Support of Respondents contains 7,993
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 20, 2020.

Howe) al re
Brianne\J/ Gorod
Counsel for Amici Curiae
